                             Office of the Inspector General

August 27, 1998

Kenneth S. Apfel

Commissioner of Social Security


Acting Inspector General



The Social Security Administration’s Process to Segregate Continuing Disability

Review Costs



The attached final report presents the results of our review, “The Social Security

Administration’s Process to Segregate Continuing Disability Review Costs”

(A-01-98-51001). The objective of our review was to assess the process used by the

Social Security Administration to collect and allocate continuing disability review

administrative costs from funds designated for these reviews.


You may wish to comment on any further action taken or contemplated on our

recommendations. If you choose to offer comments, please provide them within the

next 60 days. If you wish to discuss the final report, please call me or have your staff

contact Pamela J. Gardiner, Assistant Inspector General for Audit, at (410) 965-9700.





                                                James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION




      THE SOCIAL SECURITY
   ADMINISTRATION’S PROCESS
   TO SEGREGATE CONTINUING
    DISABILITY REVIEW COSTS

   August 1998   A-01-98-51001




EVALUATION

  REPORT

                 E X E C U TI V E S U M M AR Y 


OBJECTIVE

Our objective was to assess the process used by the Social Security Administration
(SSA) to collect and allocate continuing disability review (CDR) administrative costs
from funds designated for these reviews.

BACKGROUND

The purpose of the periodic CDR is to determine whether a disabled beneficiary is still
medically eligible to receive benefits. Recently, under separate Acts, Congress
mandated that specific CDRs and/or redeterminations be performed in addition to
SSA’s ongoing periodic CDR workload. The congressionally mandated reviews
include: (1) redeterminations for children with a disability based on the comparable
severity standard and/or maladaptive behavior, (2) redeterminations for all
Supplemental Security Income (SSI) recipients attaining age 18, (3) CDRs for all low
birth-weight babies, and (4) CDRs at least once every 3 years for all SSI recipients
under age 18 if not permanently disabled.

In the Contract with America Advancement Act of 1996 (see Appendix A), more than $4
billion in funding was provided to conduct these CDRs. Furthermore, the Personal
Responsibility and Work Opportunity Reconciliation Act of 1996, also called the
Welfare Reform law, provided $250 million for additional SSI reviews. SSA is required
to annually report to Congress on the number of CDRs completed, the cost to perform
these reviews, and the expected program cost savings that will result from these
reviews. In Fiscal Year (FY) 1996, shortly after Congress authorized additional funds
for CDRs, SSA established financial controls to collect and allocate these CDR
administrative costs.

RESULTS OF REVIEW

In FY 1996, SSA reported $207 million in FY 1996 CDR administrative costs to
Congress, of which $14 million were identified as start-up costs. Although the
collection and allocation process we reviewed was first put in place in FY 1996, it was
implemented in the middle of the FY and most of the administrative costs reported to
Congress were based upon estimates rather than outputs from this new process. SSA
has yet to report its FY 1997 CDR administrative costs to Congress, but plans to
provide these costs in its FY 1997 Annual Report on CDRs.




                                            i
Our review focuses on the process SSA used to collect and allocate approximately
$501 million in FY 1997 administrative costs to CDR and Welfare Reform activities.

In order to collect and allocate CDR and Welfare Reform administrative costs, SSA
established a process which builds upon the current cost accounting system by adding
steps to capture: (1) start-up costs related to the CDR and Welfare Reform workload
and (2) ongoing costs related to specific Welfare Reform workloads. This process
assigned 88 percent of the FY 1997 CDR/Welfare Reform administrative costs through
an allocation process rather than specific identification. The remaining 12 percent of
the administrative costs related to either CDR/Welfare Reform start-up costs reported
by SSA components or the Office of Hearings and Appeals (OHA) administrative costs.
Although the importance of start-up costs are expected to decline over time, the
Disability Determination Services (DDS) offices, which reported the majority of FY 1997
start-up costs, were late in providing their start-up costs and may be underreporting
actual start-up costs.

Although SSA has developed an adequate process to collect and allocate aggregate
CDR/Welfare Reform administrative costs, Agency attempts to break out FY 1997 costs
between the specific CDR and Welfare Reform activities cannot produce reliable
numbers. For example, approximately $40.4 million of the $52.1 million in
CDR/Welfare Reform start-up costs reported by Agency components could not be
clearly allocated by type of review. In addition, SSA components were using different
definitions of a Welfare Reform review when identifying the work activities.

CONCLUSIONS AND RECOMMENDATIONS

Although SSA has been able to capture useful information related to CDR and Welfare
Reform administrative costs, the allocation process is complex and it can be difficult to
differentiate costs related to CDR versus Welfare Reform activities. As a result,
reporting both CDR and Welfare Reform information to Congress is the best approach.
By reporting CDR and Welfare Reform administrative costs in the same report, SSA
can present the entire earmarked disability review workload, qualify sections where
allocation has been difficult, and present more reliable costs than would be the case if
CDR costs were presented apart from the Welfare Reform costs.




                                            ii
In collecting, allocating, and reporting CDR administrative costs, we recommend that
SSA:

   •	 provide additional instructions to DDS offices explaining the types of costs that
      should be reported in CDR/Welfare Reform special accounts and the timetable
      for providing these costs to SSA;

   •	 clarify the definition of a periodic CDR versus a Welfare Reform review and
      provide the new definitions to the SSA components reporting information related
      to these costs; and

   •	 provide both periodic CDR and Welfare Reform administrative costs in future
      Annual Reports on CDRs.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendations. Specifically,
SSA agreed to: (1) prepare additional instructions that will provide an explanation of
the types of costs that should be reported concerning CDR/Welfare Reform cases and
the timetable for making such reports, (2) differentiate periodic CDRs from Welfare
Reform reviews to the most specific degree that is reasonably possible, and (3) provide
information on administrative spending against total earmarked funds covering both
periodic CDRs and Welfare Reform work in the Annual Report on CDRs.




                                           iii
                         TAB L E O F C O N TE N TS


                                                                                                                  Page

EXECUTIVE SUMMARY ......................................................................................... i

INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 6

    �    COSTS ALLOCATED TO COMPONENTS .............................................. 7

    Allocated Costs ................................................................................................. 7
    Start-Up Costs................................................................................................... 7

    �    CDR VERSUS WELFARE REFORM COSTS ......................................... 8

    Allocation of Start-Up Costs .............................................................................. 8
    Allocation of Ongoing Costs.............................................................................. 9

CONCLUSIONS AND RECOMMENDATIONS..................................................... 11

APPENDICES

Appendix A - Summary of Relevant Legislation

Appendix B - SSA Reporting Components

Appendix C - Cost Collection Procedures

Appendix D - FY 1997 CDR and Welfare Reform Cost Information

Appendix E - SSA’s Comments

Appendix F - Major Contributors

Appendix G - SSA Organizational Chart

                                          I N TR O D U C TI O N


OBJECTIVE

Our objective was to assess the process used by SSA to collect and allocate CDR
administrative costs from funds designated for these reviews.

BACKGROUND

The purpose of a periodic CDR is to determine whether a disabled beneficiary is still
medically eligible to receive benefits. Recently, under separate Acts, Congress
mandated that specific CDRs and/or redeterminations be performed in addition to SSA’s
ongoing periodic CDR workload.1 In some of these Acts (see Appendix A), additional
funding was provided to conduct these reviews. In addition, SSA is required to provide
Congress with an annual status report on the number of CDRs performed, the cost of
these CDRs, and the expected savings resulting from the reviews. SSA has updated its
cost accounting system to collect and allocate the administrative costs related to these
required reviews.

Required Reviews

Since 1994, a number of Acts have required CDRs and/or redeterminations for specific
disability populations. The congressionally mandated reviews include:

     •	 at least 100,000 CDRs annually on SSI recipients for the period October 1995
        through September 1998;
     •	 redeterminations by January 1, 1997 for recipients for whom drug addiction and/or
        alcoholism (DAA) is a contributing factor material to the finding of disability and
        who timely appealed their benefit termination based on DAA;
     •	 redeterminations for children with a disability based on the comparable severity
        standard and/or maladaptive behavior;
     • redeterminations for all SSI recipients attaining age 18;
     • CDRs for all low birth-weight babies; and
     •	 CDRs at least once every 3 years for all SSI recipients under age 18 if not
        permanently disabled.



1
  Periodic CDRs relate to reviews performed from time to time to determine if the individual continues to be disabled, as compared to work
issue CDRs related to reviews initiated when work activity is reported by an individual.


                                                                       1

One of these Acts, the Contract with America Advancement Act of 1996 (Public Law
[P.L.] 104-121), provided more than $4 billion in funds to SSA for FYs 1996 through
                                           2
2002 for the purpose of conducting CDRs. Another Act, the Personal Responsibility
and Work Opportunity Reconciliation Act of 1996 (P.L. 104-193), often referred to as the
Welfare Reform Act, authorized $150 million in FY 1997 and $100 million in FY 1998 in
additional funds to assist with these CDR and redetermination mandates.3 The
Congress appropriated $260 million for CDRs in FY 1996 and a total of $510 million for
CDRs and Welfare Reform reviews in FY 1997.

The Contract with America Advancement Act requires the Commissioner of Social
Security to report to Congress annually for FYs 1996 through 2002 on CDRs, including
the:

       •	 amount spent on CDRs in the FY covered by the report, and the number of
          reviews conducted, by category of review;
       •	 results of CDRs in terms of cessations of benefits or determinations of continuing
          eligibility, by program; and
       •	 estimated savings over the short-, medium-, and long-term to the Disability
          Insurance (DI), SSI, Medicare, and Medicaid programs from CDRs which result in
          cessations of benefits and the estimated present value of such savings.

The Act also states that:

             “. . . the Commissioner of Social Security shall ensure that funds made
             available for continuing disability reviews . . . are used, to the greatest
             extent practicable, to maximize the combined savings in the old-age,
             survivors, and disability insurance, supplemental security income,
             Medicare, and medicaid programs.”

Cost Accounting Information

In order to comply with Congress’ request for cost information related to CDR work,
SSA’s Office of Finance, Assessment and Management (OFAM) established new
controls to properly collect and allocate CDR administrative costs. Prior to these new
reporting requirements, SSA collected extensive performance and cost data from SSA
components. This data assists the Agency with allocating its costs among the various
funding and reimbursement sources available for Agency activities, including the Old-
Age and Survivors Insurance trust fund, the DI trust fund, the Medicare trust fund, the



2
  The Act authorized funds to be spent on performing the required periodic CDRs in addition to the normal workload: for FY 1996, $260 million;
for FY 1997, $360 million; for FY 1998, $570 million; and for FY 1999 though FY 2002, $720 million annually.

3
    These funds were also earmarked for redetermining the SSI eligibility of noncitizens.


                                                                         2

Department of Labor,4 the Health Care Financing Administration, the States,5 and the
General Fund.

The most significant changes in the cost accounting process to assist the Agency with
collecting and allocating CDR and Welfare Reform administrative costs include:

       •	 specific cost accounting numbers (CAN) assigned to SSA components (see
          Appendix B) to capture start-up costs related to processing CDR and Welfare
          Reform reviews; and

       •	 specific Welfare Reform review categories to measure work activities at the SSA
          components involved in processing Welfare Reform workloads.

Appendix C provides more information on the specific steps taken by SSA to collect and
allocate CDR and Welfare Reform costs.

Under the new cost collection process, SSA’s FY 1997 CDR/Welfare Reform costs were
collected from four primary sources (see Figure 1):

       •	 Start-up Cost CANs: SSA set up specific CANs for CDR/Welfare Reform start-
          up costs identified at SSA components.

       •	 OFAM Allocation: OFAM is responsible for collecting and allocating
          administrative costs for most SSA components, with the exception of DDS offices
          and OHA. OFAM receives work activity information from SSA components
          through periodic work sampling. This work sampling is performed weekly in
          SSA’s offices by an assigned individual who determines what each employee in
          the office is working on at a particular point in time. This sampling data is one of
          the primary sources of information used by OFAM in allocating costs to CDR and
          Welfare Reform workloads.

       •	 Division of Field Disability Operations (DFDO) Allocation: DFDO is
          responsible for allocating administrative costs at the DDS-level. This information
          is then reported to OFAM. DFDO allocates administrative costs to CDR and
          Welfare Reform workloads by generating an average cost per case for each
          State.

       •    OHA Costs: Hearings and appeal administrative costs related to the
            CDR/Welfare Reform workload are collected and reported to OFAM by OHA.6

4
  The Department of Labor reimburses SSA for taking claims and performing other services related to the Black Lung program, a benefit
program for coal mine workers and their dependents and survivors.

5
    The Health Care Financing Administration and States reimburse SSA for services related to the Medicaid program.


                                                                       3

                         Figure 1: Flow of FY 1997 CDR/Welfare Reform Cost Data


         Start-up                                                                                          Start-up
         Costs                                                                                             Costs
                                                                              Other SSA
                                         DDS                                 Components

                                                     Performance                      Performance
                                                     Data                             Data                 $
                              DFDO Cost                                         OFAM Cost
               $                                                                 Allocation         OHA
                          Allocation Process                                     Process

                       On-going                                                        On-going
                       Costs                                                           Costs

                                      Fiscal Year Periodic CDR and
           CANs                           Welfare Reform Costs                                            CANs




SCOPE AND METHODOLOGY

To accomplish our objective, we:

•	 reviewed the June and December 1996 OFAM guidance sent to SSA components
   outlining how to report CDR and Welfare Reform administrative costs;

•	 reviewed the December 1996 Office of Budget guidance on the CDR and Welfare
   Reform reporting process, as well as a memo from the Office of Budget to the Office
   of Management and Budget explaining how SSA intended to collect these
   administrative costs;

•	 reviewed congressional legislation authorizing CDR and Welfare Reform
   administrative costs and mandating accountability;

•	 interviewed SSA officials to determine: (1) what CDR and Welfare Reform costs and
   information were actually being collected, and (2) whether SSA components were
   complying with the financial reporting requirements;




6
    OHA also reports its CDR/Welfare Reform start-up costs to OFAM through a special CAN.


                                                                     4

•	 interviewed officials at both SSA regional offices (RO) and DDS offices to obtain their
   impressions of the cost reporting process;

•	 reviewed administrative cost data and other information provided by SSA
   components to determine how the information is being used in the allocation process;
   and

•	 reviewed cost allocation worksheets provided to the Office of the Inspector General
   in January 1998 to determine whether the process used to collect and allocate
   administrative costs is adequate.

Our review included an examination of the process used by SSA to collect and report

CDR/Welfare reform administrative costs. It did not include a verification of either the

financial figures or the workload data reported by these components. Our review

covered the collection of a majority of CDR/Welfare Reform costs collected by SSA,

including all DDS costs, all start-up costs, and all Agency components reporting

information with the exception of OHA. The collecting and reporting of OHA’s ongoing

costs were not part of this review since that office has its own accounting system and the

costs involved totaled less than 2 percent of CDR/Welfare Reform costs.


We did not review the underlying cost accounting system used by SSA in allocating all of

its costs, but rather analyzed the process to collect and allocate CDR and Welfare

Reform costs to determine whether it was reasonable. A separate review of SSA’s

overall cost accounting systems was conducted by PriceWaterhouse Coopers in 1997.


We conducted our review between October 1997 and February 1998 in

Baltimore, Maryland, and in Boston, Massachusetts. The review was conducted in

accordance with the Quality Standards for Inspections issued by the President’s Council

on Integrity and Efficiency.





                                            5

                               R E S U L TS O F R E V I E W 

In FY 1996, SSA reported $207 million in FY 1996 CDR administrative costs to
Congress, of which $14 million were identified as start-up costs. Although the collection
and allocation process we reviewed was first put in place in FY 1996, it was implemented
in the middle of the FY and most of the administrative costs reported to Congress were
based upon estimates rather than outputs from this new process. SSA has yet to report
its FY 1997 CDR administrative costs to Congress, but plans to provide these costs in its
FY 1997 Annual Report on CDRs.7 Our review focuses on the process SSA used to
collect and allocate approximately $501 million in FY 1997 administrative costs to CDR
and Welfare Reform activities.

In order to collect and allocate CDR and Welfare Reform administrative costs, SSA
established a process which builds upon the current cost accounting system by adding
steps to capture: (1) start-up costs related to the CDR and Welfare Reform workload
and (2) ongoing costs related to specific Welfare Reform workloads. This process
assigned 88 percent of the FY 1997 CDR/Welfare Reform administrative costs through
an allocation process rather than specific identification. The remaining 12 percent of the
administrative costs related to either CDR/Welfare Reform start-up costs reported by
SSA components or OHA administrative costs. Although the importance of start-up
costs are expected to decline over time, DDS offices, which reported the majority of FY
1997 start-up costs, were late in providing their start-up costs and may be
underreporting actual start-up costs.

Although SSA has developed an adequate process to collect and allocate aggregate
CDR/Welfare Reform administrative costs, Agency attempts to break out FY 1997 costs
between the specific CDR and Welfare Reform activities do not produce reliable
numbers. For example, approximately $40.4 million of the $52.1 million in CDR/Welfare
Reform start-up costs reported by Agency components could not be clearly allocated by
type of review. In addition, SSA components were using different definitions of a
Welfare Reform review when identifying their work activities.




7
    SSA officials stated that they expect to provide the FY 1997 Annual Report on CDRs to Congress by the summer of 1998.


                                                                      6

COSTS ALLOCATED TO COMPONENTS

Allocated Costs

In January 1998, OFAM provided the most current break-out of FY 1997 CDR/Welfare
Reform costs. This information shows that approximately 88 percent of the $501 million
in administrative costs associated with these reviews were determined through an
allocation process by either DFDO or OFAM. The remaining 12 percent represent
CDR/Welfare Reform start-up costs and OHA costs. In future years, as the work
continues, the amount of start-up costs should decline until almost all of the costs are
determined through the allocation process. Figure 2 shows this cost break out.

    Figure 2: FY 1997 CDR and Welfare Reform Allocated Costs versus Start-up
             and OHA Costs
                                                                       After reviewing the Agency’s collection
                                                                       and allocation process, we determined
                                                                       that the process was adequately
                                                     Start-up          identifying CDR/Welfare Reform
       Allocated
          Costs                                       Costs            administrative costs in the aggregate.
                                                       10%
          88%                                                          Most of the costs were allocated to
                                                    OHA Costs          SSA components based upon either
                                                         2%
                                                                       work sampling or workload data directly
                                                                       related to the work of the component.
                                                                       However, some components were
   N ote: O H A st art-up cost s are include d in the st art-up cost s allocated costs based upon their
   a bov e a nd not in O H A c ost s.                                  support role, even though they did not
                                                                       directly process CDR/Welfare Reform
                                                                       workloads. For example, both OFAM
                                                                       and the Office of Communications were
allocated administrative costs for their support of the CDR/Welfare Reform reporting
process.

Start-Up Costs

About 53 percent of the $52.1 million in start-up costs reported by SSA components
related to DDS activities (see Figure 3). The majority of the remaining costs were
reported by either the field offices (FO) or OHA. SSA officials told us that DDS offices
have been slow to report their start-up costs and often underreport these costs. As of
late February 1998, only 23 of 53 State DDSs8 had reported CDR/Welfare Reform start-
up costs for FY 1997. When we asked about the reasons for DDS nonreporting, we
were told by SSA officials that DDSs do not


8
    This number includes all 50 States, the District of Columbia, Guam, and Puerto Rico.


                                                                        7

always understand the CDR/Welfare Reform reporting requirements. Both DFDO and
RO officials told us they periodically remind DDS offices to isolate and report all of these
costs.

  Figure 3: FY 1997 CDR/Welfare Reform Start-up Costs
                                                                                 In our conversations with
         Other HQ                                                                DDS offices, one DDS
                                                                                 official had originally told us
              OFAM
                                                                                 in December 1997 that no
               OPIR                                                              CDR start-up costs had been
                OHA                                                              incurred during FY 1997.
                                                                                 However, this same DDS
     Field Offices
                                                                                 office later reported FY 1997
                DDS                                                              CDR start-up costs. When
                                                                                 we asked the official why
                       0             10               20               30
                                                                                 start-up costs were now
                                  Millions of Dollars
                                                                                 being reported, he told us
      N ot e: O ff ice of Program and Integrity Rev iew s (O PIR) start-up costs that he called a SSA
      relate t o qualit y assurance and consist ency review s.                   regional official after our
                                                                                 inquiry and found that
                                                                                 certain personnel costs
could be charged to the start-up CAN. He said the guidance on the allocation of
personnel costs was unclear and only after working through the numbers with the
regional contact could he isolate these costs.

CDR VERSUS WELFARE REFORM COSTS

Although SSA has been able to capture useful information related to CDR and Welfare
Reform review costs, the allocation process is still complex and it can be difficult to
differentiate costs related to CDRs versus Welfare Reform reviews. CDR/Welfare
Reform start-up costs of $40.4 million could not be clearly allocated by type of review. In
addition, SSA components reporting data for allocation purposes were using different
definitions of a Welfare Reform review when identifying their work activities. As a result,
although the process can adequately identify aggregate CDR/Welfare Reform
administrative costs, the current break-out of these costs between CDR and Welfare
Reform activities is unreliable.

Allocation of Start-Up Costs

As previously mentioned, SSA components were provided special CANs for
CDR/Welfare Reform start-up costs in FY 1997. The $52.1 million in administrative
costs captured in these start-up CANs during FY 1997 can represent either a periodic
CDR start-up cost or a Welfare Reform start-up cost. The only exception was the CAN
for use by ROs and FOs. These offices were provided two CANs: a CDR start-up CAN


                                                       8

and a separate Welfare Reform start-up CAN. As a result, about $11.7 million in field-
related start-up costs can be separated for reporting purposes, although the Agency had
not separated them in the figures it provided to us. The other SSA components,
reporting $40.4 million in start-up costs, cannot be separated in the same way.

We spoke to an OFAM official about the process for separating the $40.4 million in start-
up costs grouped as both CDR and/or Welfare Reform costs. The official told us that an
attempt to separate these start-up costs with any precision would be very difficult, if not
impossible. Nonetheless, the preliminary worksheets show the start-up costs have been
broken out for reporting purposes. For example, all of the field start-up costs are being
reported under Welfare Reform, even though six of the regions reported more than
$138,000 in periodic CDR costs. The preliminary classification of other start-up costs
was also unreliable. For instance, all of the DDS start-up costs of $27.3 million were
reported under periodic CDRs, even though DDS offices were also performing medical
reviews under Welfare Reform. The Office of Quality Assurance and Performance
Assessment’s (OQA) $3.8 million in start-up costs were also reported under periodic
CDR costs, even though OQA’s work involved Welfare Reform cases. Finally, OHA’s
$8.4 million in start-up costs reported under a CDR/Welfare Reform CAN were placed
under Welfare Reform only. See Table 1 for a break-out of these costs and their
separation by type of review. Although the aggregate start-up costs can be traced back
to supporting data, the current separation of these start-up costs between CDRs and
Welfare Reform reviews is not reliable.

       Table 1: Preliminary Separation of Start-up Costs (Shown in millions)
                                                              Welfare Reform Start-
     SSA Component               CDR Start-up Costs                 up Costs
 DDS                                     $ 27.3                         $ 0

 Regional/Field Offices                       0                          11.7
 OHA                                          0                           8.4

 OQA                                        3.8                             0

 OFAM                                         0                           0.4

 Other HQ                                     0                           0.5
  TOTAL                                  $ 31.1                         $21.0


Allocation of Ongoing Costs

As stated earlier, the Welfare Reform law requires four types of disability reviews: (1)
redeterminations for children with a disability based on the comparable severity standard
and/or maladaptive behavior, (2) redeterminations for all SSI recipients attaining age 18,
(3) CDRs for all low birth-weight babies, and (4) CDRs at least once every 3 years for all
SSI recipients under age 18 if not permanently disabled. However, both OFAM and
DFDO were allocating costs to Welfare Reform work using different definitions of
childhood disability redeterminations, neither of which encompasses all four Welfare
Reform categories.


                                             9

OFAM allocated FO costs to Welfare Reform childhood disability reviews based upon
work sampling data. The work sampling guidance defines “childhood disability
redeterminations” as both comparable severity standard/maladaptive reviews and age 18
reviews. DFDO, however, allocated DDS costs to Welfare Reform childhood disability
reviews using a definition of “childhood disability redeterminations” that includes only
comparable severity standard/maladaptive reviews. As a result, FO administrative costs
related to age 18 redeterminations are being allocated to Welfare Reform reviews and
DDS administrative costs related to age 18 redeterminations are being allocated to
CDRs.9

The different Welfare Reform caseload definitions have led to inconsistent cost
allocations by OFAM and DFDO. Considering that SSA claims it performed about
47,000 age 18 redeterminations in FY 1997, we estimate that DFDO would have
allocated about $16.5 million in administrative costs to Welfare Reform reviews rather
than CDRs had DFDO been using the same Welfare Reform definitions as OFAM.10

Although SSA’s collection and allocation process has adequately identified aggregate
CDR/Welfare Reform ongoing administrative costs, we question the ability of this same
process to provide more detailed cost break-outs. In discussions with SSA officials, we
were told that the Agency’s funding controls have been more successful in focusing on
the entire CDR/Welfare Reform funding amount rather than the individual reviews.
Therefore, by providing both CDR and Welfare Reform administrative costs in a report,
SSA’s information would be more consistent with the existing funding controls and the
Agency could avoid using less reliable numbers which occur when CDR administrative
costs are presented alone.




9
  Neither OFAM’s nor DFDO’s definition of Welfare Reform childhood disability redetermination captures low birth-weight reviews or under age
18 reviews. Hence, these reviews are captured in the periodic CDR costs.

10
   We assumed an average cost per CDR of $352 based upon DDS-specific cost information provided by DFDO. This average cost does not
include the SSA-specific costs that are also involved in processing a CDR.


                                                                     10

     CONCLUSIONS AND RECOMMENDATIONS


SSA has taken a number of steps to properly collect and allocate the administrative
funds made available for both CDR and Welfare Reform activities. New reporting
requirements and workload measures have provided financial officials in the Agency with
details on the use of earmarked funds. However, SSA may be underreporting FY 1997
start-up costs due to uneven compliance with reporting requirements at DDS offices.
The Agency needs to ensure that officials at DDSs understand the nature of the costs to
be reported and the importance of reporting this information in a timely manner.

Although SSA’s process for identifying the aggregate CDR/Welfare Reform
administrative costs is adequate. However, there are $40.4 million in FY 1997 start-up
costs that cannot be segregated and conflicting definitions of Welfare Reform activities
make it difficult to clearly separate CDR administrative costs from Welfare Reform
administrative costs. The overlapping nature of the CDR and Welfare Reform activities
and costs reinforces our earlier position11 that reporting both CDR and Welfare Reform
information to Congress is the best approach. By reporting CDR and Welfare Reform
administrative costs together, SSA can provide information on the entire earmarked
disability review workload, qualify sections where allocation has been difficult, and
present more reliable costs than would be the case if CDR costs were presented apart
from Welfare Reform review costs.

In collecting, allocating, and reporting CDR administrative costs, we recommend that
SSA:

1.	 provide additional instructions to DDS offices explaining the types of costs that
    should be reported in the CDR/Welfare Reform special accounts and the timetable
    for providing these costs to SSA;

2.	 clarify the definition of a periodic CDR versus a Welfare Reform review and provide
    the new definitions to the SSA components reporting information related to these
    costs; and

3.	 provide both periodic CDR and Welfare Reform administrative costs in future Annual
    Reports on CDRs.




11
  Review of Social Security Administration’s Fiscal Year 1996 Annual Report on Continuing Disability Reviews, (A-01-97-91007), March 18,
1998.


                                                                    11

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendations. Specifically,
SSA agreed to: (1) prepare additional instructions that will provide an explanation of the
types of costs that should be reported concerning CDR/Welfare Reform cases and the
timetable for making such reports; (2) differentiate periodic CDRs from Welfare Reform
reviews to the most specific degree that is reasonably possible, and (3) provide
information on administrative spending against total earmarked funds covering both
periodic CDRs and Welfare Reform work in the Annual Report on CDRs. (See Appendix
E for a copy of SSA’s full comments to our report.)




                                            12

APPENDICES

                                                                                                    APPENDIX A



   SUMMARY OF RELEVANT LEGISLATION

                                                                                                     PROGRAM
 LEGISLATION             DATE ENACTED                           PROVISIONS                           INVOLVED
Section 221(i) of the   Act amended on           1)	 Report to Congress annually on the                 Disability
Social Security Act     June 9, 1980 by Public       results of periodic continuing disability       Insurance (DI)
                        Law                          reviews (CDR) required to be
                        (P.L.) 96-265; on            performed on a beneficiary at least
                        January 12, 1983 by          once every 3 years, applicable only to
                        P.L. 97-455, and on          the extent that sufficient personnel and
                        November 10, 1988 by         processing time are available.
                        P.L. 100-647             2)	 Report to Congress annually with                     DI
                                                     respect to determinations that the
                                                     Commissioner has made, on a State-
                                                     by-State basis, to waive the
                                                     requirement that the continuing
                                                     eligibility of disability beneficiaries with
                                                     nonpermanent disabilities be reviewed
                                                     at least once every 3 years.

Social Security         August 1994              1)	 Conduct medical reviews on at least             Supplemental
Independence and                                     one-third of individuals attaining age 18      Security Income
Program Improve­                                     each year during Fiscal Years                       (SSI)
ments Act of 1994                                    (FY) 1996 through 1998. Report to
(P.L. 103-296)                                       Congress by October 1, 1998. (Note A)
                                                 2)	 Conduct at least 100,000 CDRs
                                                     annually on SSI recipients for the                   SSI
                                                     period October 1995 through
                                                     September 998. Report to Congress by
                                                     October 1, 1998.

Contract with           March 1996               1) Conduct redeterminations by                         DI/SSI
America                                             January 1, 1997 for beneficiaries for
Advancement Act of                                  whom drug addiction and/or alcoholism
1996 (P.L. 104-121)                                 (DAA) is a contributing factor material
(Note B)                                            to the finding of disability and who
                                                    timely appealed their termination based             DI/SSI
                                                    on DAA.
                                                 2) Report to Congress annually for
                                                    FYs 1996 through 2002 on the amount
                                                    of money spent on CDRs, the number
                                                    of reviews conducted by category, the
                                                    results of such reviews by program and
                                                    the estimated savings by program over
                                                    the short-, medium- and long-term.




                                                    A-1

                                                                                                      PROGRAM
  LEGISLATION              DATE ENACTED                            PROVISIONS                         INVOLVED
 Personal                August 1996                 1)	 Redetermine eligibility for children             SSI
 Responsibility and                                      considered disabled based on the
 Work Opportunity                                        comparable severity standard and/or
 Reconciliation Act of                                   maladaptive behavior. (Note D)
 1996 (P.L. 104-193)                                 2)	 Conduct CDRs once every 3 years for              SSI
 (Note C)                                                recipients under age 18 with
                                                         nonpermanent disabilities.
                                                     3)	 Conduct CDRs not later than                      SSI
                                                         12 months after birth for low birth-
                                                         weight babies. (Note D)
                                                     4)	 Redetermine eligibility during the               SSI
                                                                           th
                                                         individuals 18 year using the adult
                                                         initial eligibility criteria. (Note D)

 Balanced Budget Act     August 1997                 1)	 Extends current 12-month period to 18            SSI
 of 1997                                                 months for redetermining the disability
 (P.L. 105-33)                                           of children under age 18 under the new
                                                         comparable severity standard and/or
                                                         maladaptive behavior standards.
                                                     2)	 Permits the Social Security
                                                         Administration (SSA) to schedule a               SSI
                                                         CDR for low birth-weight babies at a
                                                         date after the first birthday if the
                                                         Commissioner determines the
                                                         impairment is not expected to improve
                                                         within 12 months of the child’s birth.
                                                     3)	 Provides SSA with the authority to               SSI
                                                         make redeterminations of disabled
                                                         childhood recipients who attain age 18,
                                                         using the adult eligibility criteria, more
                                                         than 1 year after the date such
                                                         recipient attains age 18.

Notes:      (A) Repealed by P.L. 104-193.
             (B) The legislation also authorized funds to be spent on performing the required periodic CDRs in
                 addition to the normal workload: for FY 1996, $260 million; for FY 1997, $360 million; for FY
                 1998, $570 million; and for FY 1999 though FY 2002, $720 million annually.
             (C) The legislation authorized $150 million in FY 1997 and $100 million in FY 1998 in additional funds
                 to assist with these additional mandates. The legislation also requires eligibility redeterminations
                 for noncitizens.
             (D) Provisions modified by the Balanced Budget Act of 1997.




                                                        A-2

                                                                       APPENDIX B



            SSA REPORTING COMPONENTS


The following SSA components are required to provide CDR and Welfare
Reform-related cost and workload data to OFAM:

•   Disability Determination Services (DDS)

•   Federal Disability Determination Services (FDDS)

•   Regional Commissioner/Field Offices

•   Office of Hearings and Appeals (OHA)

•   Program Service Centers (PSC)

•   Office of Disability and International Operations (ODIO)

•   Office of Central Records Operations (OCRO)

•   Office of Quality Assurance and Performance Assessment (OQA)

•   Office of Disability (OD)




                                           B-1

                                                                          APPENDIX C


         COST COLLECTION PROCEDURES


SOCIAL SECURITY ADMINISTRATION (SSA) COST ACCOUNTING
SYSTEMS

Prior to the establishment of the continuing disability review (CDR) reporting
requirements, SSA maintained extensive cost and workload management systems to
match administrative costs with the work being performed by the Agency. These
systems feed into the Agency’s Cost Analysis System (CAS), which ultimately assigns
costs to SSA’s work areas. One example of a method used to collect performance data
is work sampling. Work sampling is performed weekly in SSA’s offices by an assigned
individual who determines what each employee in the office is working on at a
particular point in time. For example, field office activities captured during work
sampling include efforts related to:

   •   retirement and disability claims;
   •   CDRs and redeterminations;
   •   reconsiderations, hearings, and appeals;
   •   Social Security number issuance;
   •   administration and management; and
   •   new staff training.

This sampling information is collected nationwide, combined with other sources of data,
and utilized by CAS in allocating administrative costs to various activities. Other
sources of CAS information include costs from the Agency’s financial accounting
system, full-time equivalent counts from personnel systems, and workload counts from
various Agency systems.

Additional Reporting Requirements in Fiscal Year (FY) 1996

SSA’s first new reporting mandate related to CDRs came under the Contract with
America Advancement Act of 1996 which authorized approximately $4 billion in CDR
funding over 7 years. The legislation “earmarked” these administrative funds for
periodic CDRs. As a result, SSA had to monitor these CDR funds to ensure their
appropriate use. In June 1996, the Office of Finance, Assessment and Management
(OFAM) sent guidance to SSA components involved in CDR work (see Appendix B) in
order to comply with this mandate. This guidance: (1) described the CDR-related
content of the relevant legislation, (2) defined the characteristics of the periodic CDRs
and redeterminations to be reported, (3) set up new Common Accounting Numbers


                                           C-1

(CANs) to capture CDR start-up costs at the various SSA components, and (4) required
additional detailed information from each component related to its CDR workload, such
as the number of periodic and nonperiodic CDRs performed.

Specific CANs were set up in the financial accounting system for each SSA
component involved in CDR work. These CANs were designed to capture expenditures
which can be “discretely identified as [CDR] start-up costs and can be supported by
suitable documentation.” Examples of CDR start-up costs include: (1) expenditures
related to training to perform CDR work, (2) travel related solely to training new staff or
retraining existing staff for CDR work, (3) alterations to buildings and facilities
necessitated by CDR work, or (4) equipment acquisitions related to CDR work.

Many of the periodic CDR costs for FY 1996, including the start-up costs, had to be
reconstructed by SSA components and OFAM officials. This reconstruction was
necessary due to the fact that the Contract with America Advancement Act, which
mandated this CDR cost reporting, was not passed until March 1996 (6 months into FY
1996). In addition, as already mentioned, OFAM guidance did not go out to SSA
components until June 1996 (9 months into FY 1996). As a result, by the end of the
FY, SSA components were being asked to provide their best estimate of start-up costs
while OFAM officials were attempting to measure the ongoing CDR administrative costs
for FY 1996 using CDR workload information from the components and other
information already available in CAS. SSA officials said the resulting $207 million in
CDR costs reported for FY 1996 was a conservative estimate of the CDR costs
incurred during the FY.1

CDR and Welfare Reform Cost Reporting in FY 1997

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996, also
called the Welfare Reform Act, mandated that SSA conduct additional CDRs and
redeterminations on new groups of individuals, including children and noncitizens
receiving SSI. Congress also authorized $150 million in FY 1997 and $100 million in
FY 1998 to conduct these reviews. However, this new funding could be spent on either
periodic CDRs or the new reviews required under Welfare Reform.

As a result of the Welfare Reform provisions, OFAM modified its cost reporting system
to capture both periodic CDR and Welfare Reform workloads and administrative costs.
In December 1996, new reporting guidance went to SSA components already reporting
periodic CDR costs under the June 1996 OFAM guidance. In this guidance, OFAM
notes that the earmarked funding “ . . . not only continues but expands the funds control
pattern which Congress established in FY 1996 appropriations.” SSA components
were now required to include any Welfare Reform start-up costs in the CANs
established to capture CDR start-up costs. In addition, the components were asked to


1
  Our review of SSA’s internal controls over cost reporting focused on the FY 1997 reporting process and not the FY 1996 process since, due
to the timing of the legislation during the year, most of the new controls were not as relevant to the FY 1996 reported costs.


                                                                   C-2

provide additional detail in their workload break outs, including the number of periodic
CDRs, childhood redeterminations, and age 18 redeterminations performed.

Although the existing management systems were providing workload break outs
showing the CDR-related numbers, additional information was needed to determine
which of these workload numbers related to periodic CDRs and which related to
Welfare Reform reviews. To obtain this additional detail, OFAM provided additional
work sampling categories to the components so that the time dedicated to these new
activities could be measured. These additional work sampling categories helped
OFAM to better allocate the number of workyears and administrative costs dedicated to
Welfare Reform. For instance, three new work sampling categories were created to
capture Welfare Reform work related to childhood disabilities at the field offices:

       •    Childhood Disability Redeterminations;
       •    Childhood Disability Redeterminations/Reconsiderations; and
       •    Childhood Disability Redeterminations/Hearing and Appeals.

Disability Determination Services (DDS) administrative costs are handled somewhat
differently since DDS offices do not report directly to SSA’s financial management
                                                                             2
system. Instead, DDS offices are reimbursed by SSA for services provided. As a
result, both CDR and Welfare Reform costs, as well as workload data generated by
DDS offices, are collected and analyzed by the Division of Field Disability Operations
(DFDO). DFDO determines the allocation of administrative costs at the DDS-level and
then reports this information to OFAM. Unlike OFAM, DFDO did not utilize work
sampling data in its FY 1997 cost allocation. Instead, DFDO allocated administrative
costs on a State-by-State basis using reported costs and workloads. This method
generates an average cost per case for each State. The combined costs represent the
national costs for performing CDRs and redeterminations. In order to break out CDRs
from Welfare Reform reviews, DFDO managers obtained the number of Welfare
Reform childhood disability reviews from the Office of Disability, backed these reviews
out of its CDR numbers, and then multiplied each type of review by the average cost
per case.




2
    DDS Offices report their quarterly obligations on an SSA-4513, State Agency Report of Obligations for SSA Disability Programs.


                                                                     C-3

                                                                                                                     APPENDIX D


         FISCAL YEAR 1997 CDR AND WELFARE

             REFORM COST INFORMATION


Overall Costs

Documents provided by the Office of Finance, Assessment and Management (OFAM)
show that the Social Security Administration (SSA) spent approximately $501 million1
during Fiscal Year (FY) 1997 on continuing disability review (CDR) and Welfare
Reform activities. About $310 million (67 percent) of the ongoing administrative costs
relate to periodic CDRs, while about $147 million (33 percent) of the ongoing
administrative costs relate to work defined by SSA as reviews required by Welfare
Reform (see Figure D1).2

                 Figure D1: Expenditures for CDRs and Welfare Reform Reviews



                                                                                              WR/Child
                                                                                                 26%




                          CDRs
                            67%

                                                                                             WR/Non-
                                                                                              Citizen
                                                                                                  7%




1
  These numbers were provided by OFAM officials in January 1998. The actual costs reported by SSA could change because delays in
obtaining Disability Determination Services start-up costs or other reasons. However, updated numbers are not expected to have much
impact on the work breakouts shown in this Appendix.

2
    As noted earlier in this report, varying definitions were used by SSA components in defining Welfare Reform reviews.


                                                                      D-1

Welfare Reform

Although SSA had originally estimated that approximately 45 percent of its FY 1997
administrative costs would come under Welfare Reform, fewer childhood
redeterminations were processed than originally planned. In addition, legislative
changes in FY 1997 reduced the number of required noncitizen redeterminations,
thereby reducing these Welfare Reform costs.3

Only the regional/field office component segregated Welfare Reform and CDR start-up
costs in separate CANs. In terms of Welfare Reform start-up costs, we found that the
                              4
majority of the $11.5 million in start-up costs related to new guards hired and placed in
the field offices (see Figure D2). We were told that this was not the first time new
legislation has required increased security at field offices. A similar need for guards
occurred when SSA was conducting medical redeterminations on individuals with
disabilities related to drug addiction and/or alcoholism.

                Figure D2: FY 1997 Region/Field Office Welfare Reform Start-Up Costs



                                                                                      Supplies
                                                                                         11%

                                                                                                Travel
                                   Guards
                                                                                                 9%
                                    57%

                                                                                              Structures
                                                                                                 10%


                                                                                   Other
                                                                                   13%

                               Note: Other consists of change of station costs, transportation,
                               rent and utilities, printing, and equipment.




3
  The Balanced Budget Act of 1997 amended the Welfare Reform law so that it does not apply to noncitizens who were lawfully residing in
the United States and receiving such benefits on August 22, 1996. We believe the noncitizen ongoing costs can be adequately separated
from the childhood redeterminations. Segregating noncitizen redetermination start-up costs will be more difficult.

4
    This number does not include $138,000 in CDR start-up costs.


                                                                   D-2

Medical Reviews

The cost data also showed that approximately 59 percent of the FY 1997 CDR/Welfare
Reform ongoing administrative costs related to full medical reviews performed by
Disability Determination Services (DDS) offices. The remainder of the costs related to
areas such as case processing, CDR mailers,5 hearings and appeals, and overhead.

In terms of specific workloads, about 61 percent of the CDR work related to DDS
administrative costs, while DDS work represented about 54 percent of the Welfare
Reform administrative costs (see Figure D3). DDS’ share of ongoing administrative
costs was even greater (about 69 percent) if the Welfare Reform childhood disability
redeterminations are considered separately from the noncitizen costs. This is because
the noncitizen work did not require the involvement of DDSs.

                          Figure D3: CDR Welfare Reform Ongoing Medical Costs




     Welfare
     Reform
                                                                                          Non-DDS
                                                                                          DDS
          CDR

                         0                50                100               150   200
                                             Millions of Dollars




5
    SSA conducted almost 270,000 CDRs through questionnaires, called CDR mailers.


                                                                 D-3
                  APPENDIX E



SSA’s COMMENTS

                                                                       APPENDIX F



                  MAJOR CONTRIBUTORS


Office of the Inspector General

Roger Normand, Director, Northern Program Audit Division

Rona Rustigian, Deputy Director

Walter Bayer, Auditor-in-Charge



For additional copies of this report, please contact the Office of the Inspector

General’s Public Affairs Specialist at (410) 966-9135. Refer to Common

Identification Number A-01-98-51001.





                                        F-1

                                                                  APPENDIX G



           SSA ORGANIZATIONAL CHART


[pointer to Office of Financial Policy and Operations under the
Deputy Commissioner of Finance, Assessment, and Management ]




                                      G-1

